The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
                                        Meredith M. Broadbent
         UNITED STATES INTERNATIONAL TRADE COMMISSION

                                    WASHINGTON, DC 20436


November 9, 2012                                                           OIG-KK-019

Chairman Williamson:

This memorandum transmits the results of the audit (OIG-AR-13-03) of the Commission’s
financial statements for the fiscal years ended September 30, 2012 and 2011.

We contracted with the independent certified public accounting firm, Castro & Company, LLC,
to conduct this audit. The contract required that the audit be performed in accordance with U.S.
generally accepted government auditing standards.

My office has policies and procedures that are designed to provide assurance that work
performed by non-Federal auditors complies with the auditing standards. These procedures
follow the guidelines provided in the GAO/PCIE Financial Audit Manual (FAM650). In
connection with this contract, we reviewed Castro & Company’s final report and related
documentation and made inquiries of its representatives. Our involvement in the audit process
consisted of monitoring audit activities, attending meetings, participating in discussions, and
reviewing the audit planning, working papers, conclusions, and results.

Our involvement and review of Castro & Company’s work disclosed no instances where they did
not comply, in all material respects, with the U.S. generally accepted government auditing
standards; however, this review cannot be construed as an audit, and is not intended to enable us
to express, and we do not express, any opinion on the Commission’s financial statements. Castro
and Company is solely responsible for the audit report dated November 8, 2012, and the
conclusions expressed in the report.

Thank you for the cooperation and courtesies extended to both Castro & Company and my staff
during this audit.

Sincerely,



Philip M. Heneghan
Inspector General
                                                                                    2121 Eisenhower Ave.
                                                                                    Suite 606
                                                                                    Alexandria, VA 22314
                                                                                    Phone: 703.229.4440
                                                                                    Fax: 703.859.7603
                                                                                    www.castroco.com
                                   Independent Auditor’s Report


Inspector General
U.S. International Trade Commission

We have audited the accompanying balance sheets of the U.S. International Trade Commission
(ITC) as of September 30, 2012 and 2011, and the related statements of net cost, changes in net
position, and budgetary resources for the fiscal years then ended. These financial statements are the
responsibility of ITC management. Our responsibility is to express an opinion on these financial
statements based on our audits.

We conducted our audits in accordance with the auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and, Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
amended. Those standards require that we plan and perform the audits to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and significant estimates
made by management, as well as evaluating the overall financial statement presentation. We believe
that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the ITC as of September 30, 2012 and 2011, and the related statements of net
cost, changes in net position, and budgetary resources for the years then ended in conformity with
accounting principles generally accepted in the United States of America.

The information presented in the Management's Discussion and Analysis is not a required part of
ITC's financial statements, but is considered supplementary information required by U.S. generally
accepted accounting principles and OMB Circular No. A-136, Financial Reporting Requirements.
The other accompanying information has not been subjected to the auditing procedures applied in
our audit of the basic financial statements and accordingly, we express no opinion on it.

The information presented in the Message from the Chairman and Performance Section is presented
for purposes of additional analysis and is not required as part of the financial statements. However,
we have applied certain limited procedures, which consist principally of inquiries of management
regarding the methods of measurement and presentation of the supplementary information. Such
information has not been subjected to auditing procedures, and accordingly, we express no opinion
on it.

In accordance with Government Auditing Standards, we have also issued our reports dated
November 8, 2012, on our consideration of ITC’s internal control over financial reporting and on our
tests of its compliance with certain provisions of laws, regulations and other matters. The purpose of
those reports is to describe the scope of our testing of internal control over financial reporting and
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
